HHS/OIG, Audit - "Summary Report on State, Local, Private, and Commercial
Laboratories Compliance With Select Agent Regulations," (A-04-06-01033)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Summary
Report on State, Local, Private, and Commercial Laboratories Compliance With
Select Agent Regulations," (A-04-06-01033)
January 9, 2008
Complete
Text of Report is available in PDF format (417 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit objectives were to
(1) summarize the findings in our eight individual reports and (2) determine
whether CDC had resolved the audit recommendations in those reports in a timely
manner.
The individual audits found that each of the eight
entities had appointed a Responsible Official to provide management oversight of
its select agent program.  However, certain other controls at all eight entities
did not comply with Federal regulations and each entity had weaknesses in at
least one control area that could have compromised their ability to safeguard
select agents from accidental or intentional loss.
In responding to our draft report, CDC stated that it had resolved our
recommendations at five of the eight entities and that the remaining three
entities had withdrawn their certificates of registration and no longer
possessed select agents.  CDC attached audit clearance documents resolving the
recommendations in our reports to all eight entities.  Therefore, this final
report contains no recommendation.